Department of the Interior
Office of Inspector General


            Audit Report

    Health and Safety Concerns at
 Department of the Interior’s Facilities




C-IN-MOA-0011-2006              March 2008
                              EXECUTIVE SUMMARY

                              What We Found

Why We Did This Audit         The Department of the Interior (Department or DOI) and its bureaus
We performed this audit to    made progress in identifying, prioritizing, and mitigating health and
assess the Department’s       safety hazards at the Department’s facilities. However, they do not
processes for addressing      know if all health and safety issues have been identified because they
health and safety issues.     have not completed all condition assessments and safety inspections
                              of facilities. They have worked to establish and assign the highest
Audit Objective               priority to health and safety issues, but mitigation of these issues is
The objective of our audit    still not effective. We found health and safety hazards that place
was to determine whether      employees and the public at risk. Weaknesses in the health and safety
the Department of the Inte-   program hamper the Department’s ability to identify, prioritize, and
rior and its bureaus have     mitigate safety hazards. Finally, there is a lack of coordination
effectively identified,       between the safety and facility maintenance programs.
prioritized, and mitigated
health and safety issues      Examples of unmitigated health and safety issues that we found
related to its constructed
                              include:
infrastructure that could
adversely affect employees
and the public. We fo-           ► Severe deterioration exists at Bureau of Indian Education’s
cused our work on the Na-            (BIE) elementary and secondary schools. BIE identified that
tional Park Service, U.S.            69 (38 percent) of its 184 schools and dormitories are in poor
Fish and Wildlife Service,           condition. This deterioration ranges from minor deficiencies
Bureau of Indian Affairs,            such as leaking roofs to major deficiencies like structural
Bureau of Reclamation,               weaknesses, outdated electrical systems, and inadequate fire
and Bureau of Land Man-              detection and suppression systems. The deteriorating
agement, as these bureaus            conditions at the Chinle Boarding School in Arizona create the
manage substantial infra-            potential for a catastrophic fire or explosion.
structure.
                                 ► The National Park Service (NPS) has allowed crucial
                                     maintenance to lapse for years at many of its parks. For at
                                     least 20 years, NPS has not performed critical maintenance on
                                     its aging Wawona Tunnel located in Yosemite National Park.
                                     We concluded that the hazardous conditions in the Tunnel
                                     endanger lives.

                                 ► At the Jackson National Fish Hatchery in Wyoming, Fish and
                                     Wildlife Service and U.S. Geological Survey employees
                                     worked for almost seven years in two buildings that were
                                     condemned and closed to the public in September 2000.

                              What is Needed

                              The Department and its bureaus must improve and expand their health
                              and safety programs. Improvements should include:
   ► Creating an organizational structure that enhances the visibility
       and authority to effectively promote safety and to comply with
       current regulations.

   ► Ensuring effective coordination between the health and safety
       and asset management programs.

   ► Increasing the number of trained safety personnel.

   ► Ensuring an effective facility safety inspection program.

   ► Improving the Department’s Safety Management Information
       System (SMIS).

We note that the Department and its bureaus are implementing a more
proactive asset management plan for their constructed infrastructure;
however, they must accelerate its implementation and develop a
funding strategy to ensure that facilities are maintained to help protect
the health and safety of employees and the public.

During our audit we conducted a Department-wide survey of the
employees to gain their perceptions of health and safety. Based on the
results, 77 percent of respondents believe that they work in a safe and
healthy workplace and 80 percent responded that the public is safe
when visiting their workplaces. However, we also received thousands
of written comments as part of the survey. Some of these comments
revealed many health and safety conditions that are serious and have
gone uncorrected. Comments also revealed instances in which safety
is not a priority and where employees have been retaliated against for
reporting health and safety issues.

The Department and its bureaus need to systematically identify and
correct health and safety deficiencies by making the protection of
employees and the public an integral part of their asset management
processes. They must take immediate steps to prevent existing
hazards from escalating into deadly ones. Our report contains seven
recommendations to help the Department and its bureaus regarding
health and safety. In addition, we issued three Flash Reports during
our audit to address the most serious health and safety hazards. After
receiving each Flash Report, the Secretary acted quickly to direct
appropriate officials to address the problems.

In its response to our draft report, the Department stated that it has a
good Health and Safety program and that health and safety is very
important. The Department concurred with six of the
recommendations in the draft report and partially concurred with our
recommendation that it develop and implement a Department-wide
health and safety program, stating that such a program was already in
place. However, the Department agreed that the existing program

                  ii
could be strengthened. After considering the response, we revised the
recommendation to more clearly state our original intention that the
Department strengthen the existing program.

The Department also established a Special Task Force to oversee the
implementation of our recommendations and has developed a
Department-wide and cross-cutting plan of action as a result of the
Special Task Force and the DASHO Council.




                 iii
                                              Table of Contents

Introduction ...................................................................................................................... 1

           Audit Objective .................................................................................................... 1

           Background .......................................................................................................... 1

Results of Audit ............................................................................................................... 3

           Improvements Needed in the Health and Safety Program ................................... 4

           Health and Safety Issues Related to Department Facilities ................................. 9

           Employee Perceptions on Health and Safety ..................................................... 16

Recommendations .......................................................................................................... 28

Appendixes
     A. Objective, Scope, Methodology, and Internal Controls ............................... 32
     B. Related Reports ............................................................................................ 34
     C. Sites Visited and Contacted ......................................................................... 37
     D. Elements of a Well-Designed Health & Safety Program ............................. 39
     E. Improvements Needed in Department and Bureau
           Maintenance Programs.............................................................................. 40
     F. Bureau Survey Results ................................................................................. 43
     G. List of Figures .............................................................................................. 51
     H. Abbreviations ............................................................................................... 52
     I. Department’s Response to the Draft Report ................................................ 53
     J. Status of Audit Recommendations............................................................... 68




                                                                 iv
                                    Introduction

Audit Objective            The objective of our audit was to determine whether the Department
                           of the Interior (Department or DOI) and its bureaus have effectively
                           identified, prioritized, and mitigated health and safety issues related to
                           its constructed infrastructure that could adversely affect employees
                           and the public.

                           The Department faces the                 Annual Visitation
Background                 difficult challenge of                Total: 461 million visits per year
                           maintaining an infrastructure
                           valued at over $65 billion and
                           spread over 500 million acres.                            BLM
                           The ability to adequately                    BOR       58 million

                           maintain this infrastructure is           90  million

                           hampered by limited resources          FWS
 “Facilities are           and the aging of the facilities.     40 million
 deteriorating and for     This infrastructure includes
                                                                                  NPS
 the most part not being   approximately 40,000                                273 million
 repaired, so things are   buildings; 4,200 bridges and
 getting worse.”           tunnels; 126,000 miles of
                           highways and roads; and 2,500
   — Survey Response       dams as well as nearly every
                           type of asset found in a local
                           community. The Department employs over 70,000 people and
                           receives about 461 million visits annually.

                           Executive Order 12196 entitled “Occupational Safety and Health
                           Programs for Federal Employees,” effective July 1, 1980, states that
                           “the head of each agency shall furnish to employees places and
                           conditions of employment that are free from recognized hazards that
                           are causing or are likely to cause death or serious physical harm.”

                           The Department’s health and safety program is run by its Office of
 “Caring and trained       Occupational Health and Safety. The Department is required by the
 individuals are ever-     Code of Federal Regulations (29 C.F.R. § 1960.6) to select a
 watchful over the         Designated Agency Safety and Health Official (DASHO) who has the
 health and safety of      primary responsibility for managing the health and safety program. A
 visitors and employees    DASHO Council has been established to provide executive level
 alike.”                   bureau and office involvement in the formulation of policy and the
                           management of the health and safety program. The Council
   — Survey Response       determines the collective actions needed to achieve the Department’s
                           Occupational Safety and Health Strategic Plan.

                           The Department has more than 175 full-time safety professionals who
                           conduct the health and safety program. Additionally, approximately
                           1,200 Department employees serve as collateral duty safety officers.
Appendix A contains information on the audit objective, scope,
methodology, and internal controls. Appendix B lists prior reviews
that were related to our audit. Appendix C contains the sites that were
visited or contacted.




                 2
                                 Results of Audit
                            The Department has made progress in identifying, prioritizing, and
                            mitigating health and safety hazards. However, the Department and
                            its bureaus do not know if they have identified all health and safety
                            issues because they have not completed all required condition
                            assessments and facility inspections. The Department and its bureaus
                            have worked to establish and assign the highest priority to health and
                            safety issues, but mitigation of these issues is still not effective. We
                            found health and safety hazards that place employees and the public at
Survey responses reveal     risk.
that the seriousness in
which employees and         We conducted a health and safety survey of the Department’s
managers take health        approximately 71,000 employees and received 9,133 responses.
and safety varies. For      Significant results from the survey include:
example:
                               ► 77 percent of respondents stated they work in a safe and
“Our Superintendent is
serious about visitor and          healthy environment.
employee safety and
requires any safety            ► 80 percent stated the public is safe when visiting their
issues to be corrected as          workplace.
soon as identified.”
                               ► 56 percent indicated that serious health and safety deficiencies
“Health and safety are             did not exist at their workplace.
NOT a priority.”
                               ► 66 percent felt that health and safety is a priority of senior
“I believe most
                                   level management.
employees value safety
and treat safety as a
priority in their work      Although the survey results indicate that more employees than not are
assignments.”               satisfied with the health and safety programs at their workplaces,
                            many significant concerns were still raised. These concerns are
                            explained later in this report.

                            Secretary Kempthorne has affirmed his commitment to health and
                            safety. In a speech delivered on May 22, 2007, at the Main Interior
                            Building, the Secretary stated “I want to emphasize that there is
                            nothing more important to me personally and to the Department’s
                            mission than ensuring that your workplace is healthy and safe and that
                            employees, volunteers and visitors to our parks, refuges, and other
                            lands are protected from hazards, accidents and other dangers.” The
                            Secretary added that health and safety should be “Job 1” at the
                            Department.

                            We issued three Flash Reports during our audit to address the most
                            serious health and safety hazards. After receiving each Flash Report,
                            the Secretary acted quickly to direct appropriate officials to address
                            the problems. A Flash Report describes a situation or condition that is
                            so serious that management must take immediate corrective action.

                                              3
                           Improvements Needed in the Health and Safety
                           Program

                           The Department’s employee accident rate is one of the highest in the
                           federal government. In FY2006, 4,409 workers’ compensation claims
                           were filed, representing a claim rate of 6.27 out of every 100
                           employees, exceeding the federal average by 41 percent. That year,
                           the Department paid $58 million in claims and lost 15,000 days of
                           employee work, which equates to 58 work years.

                           The cost of accidents is much greater than workers compensation
                           payments alone. Using a cost estimation methodology devised by the
                           National Safety Council, we estimate that for the five years ending in
                           FY2006, injuries, illnesses, and deaths cost the Department over $480
                           million.

                           We found that improvements are needed in the health and safety
                           program. For example, the Department does not have:

                              ► An organizational structure that facilitates an effective health
                                  and safety program.

                              ► Effective coordination between the health and safety and asset
                                  management programs.

                              ► Adequate numbers of trained safety staff.

                              ► An effective facility safety inspection program.

                              ► An adequate incident tracking system.

                           The Department has not placed safety officials at the organizational
Organizational Structure   level necessary to ensure they have the visibility and authority to
                           effectively promote safety. The Code of Federal Regulations (29
                           C.F.R. § 1960.6) states that each agency head will select a Designated
                           Agency Safety and Health Official (DASHO) to operate the agency’s
                           occupational safety and health program. This regulation further
                           requires the DASHO to be the rank of an Assistant Secretary, or
                           equivalent rank. Currently, the Department’s DASHO is the Deputy
                           Chief Human Capital Officer, which is a position two levels below the
                           Assistant Secretary level.




                                            4
                                                        ASSISTANT SECRETARY
                                                       Policy, Management and Budget
                                        Rank of the
                                        DASHO as
                                        required by
                                        29 CFR          Deputy Assistant Secretary
                                                        Performance, Accountability,
                                                           and Human Resources




                                           Deputy Chief
                                        Human Capital Officer
                                                                         DOI’s current
                                                                         DASHO


                                        Office of Occupational
                                          Health and Safety



                           We found that other Federal agencies and private sector companies
                           have a chief safety officer at a higher organizational level. For
                           example, the Chief Safety Officers at the Department of Energy, the
                           National Aeronautics and Space Administration, the U.S. Air Force,
                           and Walt Disney Parks and Resorts report to the highest levels of
                           management. By specifically identifying a Chief Safety Officer, these
                           organizations create visibility for their safety programs.

                           The Department has a DASHO Council and an Asset Management
Coordination Between       Team (AMT); however, their efforts are not coordinated. The
Health and Safety and      DASHO Council was established to provide executive level bureau
Asset Management           and office involvement in the formulation of policy and the
Programs                   management of the health and safety program. The Council
                           determines the collective actions needed to achieve the Department’s
                           Occupational Safety and Health Strategic Plan. The AMT is a
                           standing committee of senior asset management officers from each
                           bureau. Its role is to preside over major real property investment
                           decisions and initiatives. The health and safety and facilities
                           programs are interrelated and it is important that they coordinate their
  “The Safety & Health     efforts.
  program and the
  facilities maintenance   At the lower levels of the bureaus, we also found that safety
  programs need to have    inspections and condition assessments (both help identify health and
  a better crosswalk to    safety deficiencies) at individual facilities were not always
  work together.”          coordinated. Until the Department and bureaus have coordinated and
    — Survey Response      completed all condition assessments and facility inspections, they
                           cannot know if all health and safety issues have been identified.

                           The Department does not have a sufficient quantity of trained safety

                                             5
Staffing and Training       personnel to help protect its employees and the public and to evaluate
                            thousands of facilities for safety hazards at its approximately 2,400
                            locations. According to the Department’s FY2006 annual report to
                            the Occupational Safety and Health Administration (OSHA), there are
                            about 1,375 safety personnel; however, only about 175 are full-time
                            positions. The remaining 1,200 are assigned safety only as a collateral
                            duty. We were told that in many cases employees are unwillingly
                            assigned the safety position as a collateral duty. Bureau safety
                            officers also told us that most collateral duty safety personnel do not
                            receive the necessary training to effectively perform their duties. The
                            Department, however, has made progress in identifying the necessary
                            training to be provided to full-time and collateral duty safety officers.
                            In 2006, the Department defined core competencies for these positions
                            and the specific training to be taken.

                            A 2005 staffing study performed by the Department’s Office of
                            Occupational Health and Safety stated that the private sector has
                            traditionally used a 1 to 500 ratio of safety professionals to employees
                            in establishing appropriate safety staffing levels. The report
                            recommended that a 1 to 250 ratio would be realistic for NPS. Using
                            this ratio, the NPS safety staffing level should have been 87 positions
                            in the field units for the 21,869 employees. At the time of the study
                            there were only 28 full time positions. As such, it is likely that many
                            locations are not effectively monitored by adequately trained safety
                            personnel.

                            Bureau Safety Officers reported that they typically do not have line
                            authority over safety personnel stationed in the regions and in the
                            field. One bureau official reported that oftentimes safety positions are
                            the first to be eliminated during budget cuts. Without line authority
                            the official could not ensure that these positions were filled by trained
                            personnel.

                            Well-trained safety officers reduce employee accidents and make a
                            difference. With approximately 71,000 employees, 200,000
                            volunteers, and over 460 million annual public visits, safety should be
                            on everyone’s mind.

                            Some bureaus did not have an effective facility safety inspection
Proactive Facility Safety   program. Specifically, we found that bureaus did not always:
Inspections
                               ► conduct the required annual facility safety inspections,

                               ► use qualified safety inspectors, and

                               ► ensure that identified deficiencies were corrected.



                            For example, BIA did not complete its health and safety inspections

                                              6
                           for FY2005 and FY2006. For FY2005, 56 percent of BIA’s locations
                           were inspected; and for FY2006, 51.4 percent of BIA’s locations were
                           inspected. Also, a safety manager can enter one inspection report for
                           one building in a compound and the safety manager will get credit for
                           all of the buildings in the compound. At Grand Canyon National
 “Problems routinely go    Park, facilities are not routinely inspected by the safety officer. We
 uncorrected for years.”   were told by the Park’s safety officer that his focus has been on
                           employee behaviors. We acknowledge that evaluating and directing
   — Survey Response       employee behaviors to prevent accidents is appropriate, but we also
                           believe that the scope of work for safety officials should be extended
                           to inspecting facilities for health and safety hazards.

                           A well-defined and proactive health and safety inspection program is
                           required by 29 C.F.R § 1960.25. The regulations require that all
                           facilities be inspected at least annually, including unannounced
                           inspections; that more frequent inspections shall be conducted in all
                           workplaces where there is an increased risk of accident, injury, or
                           illness due to the nature of the work performed; and that inspectors
                           shall be qualified to recognize and evaluate hazards and to suggest
                           abatement procedures. The Department’s high accident rates support
                           a much more robust facility inspection program.

                           When health and safety issues are identified, they are usually given
                           the highest priority. However, as shown in the examples in the next
                           section, not all health and safety issues have been categorized at the
                           highest priority.

                           BLM’s “Compliance Assessment - Safety, Health, and the
                           Environment” (CASHE) program should be looked at as a possible
                           best practice for the Department. For critical health and safety
                           deficiencies that are smaller in project size and/or cost or pose an
                           imminent danger, BLM has been able to mitigate these deficiencies
                           through annual CASHE corrective action funding. This unique pool
                           of money has enabled BLM to quickly fix various health and safety
                           problems before they escalate. For BLM's critical health and safety
                           deficiency projects that cannot be easily fixed due to cost or size of
                           project, BLM proposes these projects be included in the 5-year
                           Deferred Maintenance and Capital Improvements plan.

                           The Safety Management Information System (SMIS) is the
Incident Tracking System   Department’s mandatory mechanism for accident reporting and record
                           keeping. We found that data in SMIS was incomplete and cannot be
                           used as an effective tool to help the Department manage the health
                           and safety program. For example:

                              ► SMIS does not always capture data on visitor accidents even
                                  though there are approximately 461 million public visits to
                                  Department sites annually.


                                             7
                              ► Data on causes of accidents was incomplete. We reviewed
                                  accident records for FY2002 through FY2006 and found that
                                  10,934 of the 38,813 records (28 percent) were either missing
“The new SMIS                     data in the field that describes the cause of the accident or
automated system is               were coded as “unclassified.” As such, the cause for many of
very user unfriendly              the reportable accidents cannot be tracked and evaluated.
especially from a
manager’s perspective.”       ► When a user inputs the details of an employee accident in the
                                  system, the user is offered more than 100 codes from which to
                                  identify the accident’s cause. Some of these codes are very
   — Survey Response              similar. To illustrate, there were 28 codes alone just for falling
                                  down. However, the Office of Occupational Health and Safety
                                  (OHS) is in the process of making changes to the system that
                                  will simplify the coding systems.

                              ► One person performs the programming and system
                                  maintenance for SMIS; these duties should be segregated.
                                  Lack of segregation of duties increases the risk of
                                  unauthorized activities going undetected. Even though OHS
                                  management stated that they will accept this risk, we believe
                                  the high sensitivity of the data necessitates that adequate
                                  security measures be employed.

                              ► In 2006, OHS moved SMIS to the National Business Center
                                  (NBC) which transferred responsibility for security and
                                  network operations from OHS to NBC. System security
                                  testing should be performed by an independent party.
“It would help to know            However, the same contractor hired by NBC to complete the
what reportable                   system security testing also developed the system security plan
accidents are occurring,          and other security documentation. As a result, there are no
with what frequency,              assurances that adequate security controls are in place.
and where.”
                           An adequate incident tracking system is vital for supporting a
   — Survey Response       successful health and safety program. Such a system would allow
                           safety managers to evaluate the numbers and causes of accidents to
                           aid in developing corrective actions to prevent similar incidents in the
                           future.

                           Safety should be considered an investment, not just an expense.
                           Studies indicate that $3 to $6 may be saved for every dollar spent on
                           improving workplace safety. These savings relate to avoiding
                           payments to injured workers and medical care providers as well as
                           indirect costs for training replacement workers, repairing damaged
                           property, investigating accidents, and implementing corrective action.
                           In addition, an investment in health and safety may improve employee
                           productivity and morale, and decrease absenteeism. Appendix D
                           provides elements of a well-designed health and safety program.



                                             8
                                Health and Safety Issues Related to Department
                                Facilities

                                We believe the Department must take immediate steps to prevent
                                existing hazards from escalating into deadly ones. The following
                                examples illustrate some of the issues we found.

                           We found deterioration at all 13 Bureau of Indian Education’s (BIE)
Bureau of Indian Education elementary and secondary schools we visited. Deterioration ranged
                           from minor deficiencies like leaking roofs to major deficiencies like
                           structural weaknesses, outdated electrical systems, and inadequate fire
                           detection and suppression systems. In fact, BIE identified that 69 (or
                           38 percent) of its 184 elementary and secondary schools and
                           dormitories were in poor condition. Below are three examples of the
                           conditions we found.

                                Chinle Boarding School

                                Serious health and safety
                                deficiencies at Chinle Boarding
                                School in Many Farms, Arizona,
                                endangered the lives of the
                                school’s 90 staff members and
                                approximately 385 students.
                                Severe structural cracks and
                                unstable foundations exerted
                                pressure on natural gas lines,
                                electrical wires, and boiler room
                                components. Escaping natural
                                gas or electrical discharges from
                                damaged pipelines or wiring
                                could result in explosions and loss
                                of life. Leaks in the library roof
                                caused two electrical fires; toxic
                                air from the most recent fire
                                forced closure of the library for a
                                month. In addition, the cafeteria
                                                                    Crumbling foundations in the academic
                                had been condemned since July       buildings at Chinle Boarding School are
                                2006, and the fire alarm system     causing entire walls to move.
                                did not work.

                                Shonto Preparatory School

                                The Shonto Preparatory School is a grant school in Shonto, Arizona
                                with approximately 550 students. The school had significant
                                electrical deficiencies that increased the risk of fire and endangered
                                the lives of the students. We found duct tape placed over a circuit
                                breaker to prevent it from tripping, electrical extension cords routed

                                                  9
                             through brick walls and dangling
                             from ceilings, and a fire alarm
“One questions whether
                             system that did not work
the maintenance funds
                             properly. The school’s ongoing
provided through the
                             rodent problem was a concern for
grant is being fully
                             hantavirus, a deadly disease that
devoted to facility
                             can be contracted from rodent
maintenance with the
                             feces. We also learned of an
highest priority the
                             employee and her husband who
correction of safety
                             became ill with carbon monoxide
deficiencies.”
                             poisoning caused by a wall         Filthy sink used for food preparation at
                                                                Shonto Preparatory School is an
                             furnace within their employee
     — BIA Official                                             incubator for germs and bacteria.
                             quarters. The Bureau of Indian
                             Affairs (BIA) owns the quarters and the incident could result in a tort
                             claim.

                             Keams Canyon School

                             Keams Canyon
                             School, built in
                             1928, is a BIE-
                             operated school in
                             Keams Canyon,
                             Arizona. The most
                             serious problem at
                             the school was
                             abandoned
                             buildings, which
                             had not been
                             sufficiently boarded
“The portions of the         up and could be
abandoned dormitory/         accessed by
dining facility not in use                          Portions of the Keams Canyon School, built in 1928, are
                             children. The
                                                    still in use.
should have been             buildings had
demolished at the time       deficiencies that included collapsed floors, flooding, mold, broken
of closure. It gives the     glass, and stored toxic chemicals.
school and the agency
a slum area                  Additionally, the boiler, which was still in operation, leaked large
appearance.”                 amounts of water and had not been inspected since 2002, at which
                             time it failed inspection. BIA acknowledged that boilers across the
     — BIA Official          bureau were a health and safety problem after they experienced a
                             small but potentially lethal explosion in the firebox of a boiler in the
                             agency headquarters building on the Pine Ridge Reservation. The
                             bureau reported that this explosion initiated a nationwide review of all
                             boilers, and resulted in substantial amount of work being done on
                             boilers across Indian country. According to a BIA official, the bureau
                             spent $10 million in the early 1990s establishing a boiler inspection
                             program that was discontinued in 1995 due to lack of funding.


                                                10
                         In May 2007, we issued a Flash Report, Bureau of Indian Affairs and
                         Bureau of Indian Education: Schools in Need of Immediate Action
                         (Report No. C-IN-BIA-0008-2007), to address health and safety
                         issues at BIE schools. We recommended BIA and BIE stabilize or
                         vacate buildings that were in imminent danger of collapse; demolish
                         or prevent access to condemned buildings; and develop and
                         implement inspection and abatement plans to identify and mitigate all
                         health and safety hazards. In his response, the Assistant Secretary for
                         Indian Affairs concurred with our findings and agreed there are
                         significant issues at the schools. Although they did not feel these
                         issues were imminently life threatening, they agreed to implement our
                         recommendations.

National Park Service    We contacted ten Park units and found that NPS has allowed crucial
                         maintenance to lapse for years. Below are four examples highlighting
                         serious health and safety issues.

                         Yosemite National Park—Wawona Tunnel

                         The 74-year old, nearly
                         mile-long Wawona Tunnel
                         in Yosemite National Park
                         had lacked adequate
                         maintenance for 20 years.
 “I am alarmed at the    As a result, key safety
 potential for a         system components had
 catastrophic event of   failed, placing Tunnel
 massive and deadly      users’ lives in danger. The
 proportions in the      exhaust fans operated
 Wawona Tunnel.”         below one-third capacity, The Tunnel houses three large fans used for
                         there were no fire escape     exhausting carbon monoxide out of the Tunnel.
     — NPS Official      exits and carbon monoxide Two of the three fans operate, but only one at a
                         sensors, and no emergency time at low speed.
                         response plan. The Tunnel
                         is located on one of the Park’s major routes and the resulting volume
                         of traffic could expose users to high levels of carbon monoxide. An
                         accident in the Tunnel resulting in a fire could be disastrous. In June
                         2007, we issued a Flash Report, National Park Service: Hazardous
                         Condition of Yosemite’s Wawona Tunnel Endangers Lives (Report
                         No. C-IN-NPS-0007-2007). We recommended that NPS immediately
                         implement safeguards to protect Tunnel users, an emergency response
                         plan, and a detailed action plan to bring the Tunnel into full
                         compliance with current safety standards and regulations. In her
                         response, the NPS Director concurred with our findings and agreed
                         there are significant concerns in the Tunnel. NPS has identified short-
                         term and long-term actions to implement our recommendations.




                                           11
                          Grand Teton National Park

                          The Headquarters Administration Office building at Grand Teton
                          National Park in Wyoming did not meet earthquake seismic codes
                          despite the Park’s location near an earthquake fault. The
                          Headquarters Administration Office building included the park’s
                          headquarters and Visitor Center. In the 1990's, excessive snow
                          collapsed a portion of the original Visitor Center’s roof. The park
                          fixed that section of the roof, but did not replace or strengthen the
                          entire roof. In August 2007, NPS opened a new Visitor Center across
                          the road from the original building to make it safer for the public and
                          employees.

                          According to a 2005 report prepared by the Center for Building
                          Performance and Diagnostics at Carnegie Mellon University,
                          employees located in the adjacent Moose Maintenance Facility were
                          working in poor indoor air quality caused by vehicle exhaust coming
                          from a garage where snow plows, dump trucks, and ambulances were
                          kept. The facility was also overcrowded. The maintenance facility
                          houses the Dispatch Center, the Architectural/Engineering Division,
                          Building Operations division, workshops, and extensive areas of
                          garage space. The report made recommendations on how to improve
                          the working conditions in the buildings. Park officials reported that
                          an attempt 10 years ago to add approximately 18,000 square feet of
                          office space to the second floor stalled because of a lack of available
                          project funds. In June 2007, NPS approved a project that would
                          include rehabilitating the Moose Maintenance Facility over the next 6
                          years.

                          Dinosaur National Monument

                          Dinosaur National
                          Monument was created in
                          1915 to protect the
“Continued shifting of    world’s largest Jurassic
loads and rotation of     Period dinosaur fossil
piers will eventually     collection. NPS
reach unsafe              constructed the Quarry
conditions for visitors   Visitor Center in 1958 to
and employees areas.”     shelter the fossil
                          collection, unique because
  — Development           the exposed fossils remain
    Study 1992            embedded in the
                          mountainside. The Visitor
                          Center was literally falling
                          apart due to expanding         The Quarry Visitor Center incorporates the fossil
                          and contracting soils that     rock face as one of its walls. This fossil wall will
                          affect the building’s          be damaged if the exhibit wall or the building
                                                         collapses.                      NPS Photo
                          structural integrity. In

                                           12
                              1992, NPS concluded that the continued maintenance was merely a
                              stop-gap measure and that the entire structure should be rehabilitated
 “Nowhere else on Earth       or reconstructed. Fifteen years later, the project for the new visitor
 can you stand on the         center remains in the planning stage. The current Visitor Center
 very spot where              closed its doors in July 2006 due to safety hazards.
 dinosaurs once lived
 and see so many of           While NPS protected lives by closing the Visitor Center and
 their bones still in their   restricting access to employees, the rapid deterioration of the building
 final resting place.”        continued to put the irreplaceable fossils at risk. The day-to-day
                              maintenance that is essential to keep the building standing has not
    — NPS Draft               been performed. As a result, the fossils were being degraded by
      Environmental           exposure to weather and vermin droppings. Additionally, one of the
      Impact Statement        exhibit hall walls was in danger of collapsing. The closure of the
                              Visitor Center had other effects as well. Approximately 350,000
                              annual visitors, including research scientists, were denied access to the
                              quarry; the primary reason the Monument was created.

                              Water Systems

                              Providing safe drinking water and properly disposing of wastewater at
                              Yosemite and Yellowstone National Parks present a growing risk to
                              the health of employees and the public. Combined, these parks
                              operate 47 drinking water and 42 wastewater systems. An official at
                              Yosemite stated that the park struggles to keep its aging systems
                              running and repairs are usually not made until the facilities break or
                              fail. In addition, two of Yosemite’s water systems did not comply
                              with Federal health regulations and many of Yellowstone’s systems
                              were in various states of deterioration.

U.S. Fish and Wildlife        Jackson National Fish Hatchery
Service
                              At the Jackson
                              National Fish
                              Hatchery near
                              Jackson, Wyoming,
                              Fish and Wildlife
                              Service (FWS) and
                              U.S. Geological
 “Our refuges and
                              Survey employees
 fisheries facilities have
                              worked in buildings
 serious health and
                              that were
 safety issues. There
                              condemned and          The Jackson National Fish Hatchery buildings appear to
 are not enough funds
                              closed to the public be structurally sound, but behind the wood siding is
 set aside to correct all                            unreinforced masonry block that crumbled during tests
                              in September 2000. for seismic strength.
 deficiencies.”
                              A seismic
                              evaluation revealed
    — Survey Response
                              structural deficiencies so dangerous as to require the buildings to be
                              either permanently evacuated or demolished and reconstructed.
                              Although employees were told to move their offices to a trailer in

                                                13
                  September 2006, they continued to work in the condemned fish
                  production buildings to restock endangered trout. In May 2007, we
                  issued a Flash Report, Fish and Wildlife Service: Jackson National
                  Fish Hatchery in Need of Immediate Action (C-IN-FWS-0009-2007),
                  to alert FWS about this condition. We recommended that they
                  prohibit access to the buildings and ensure that resources are made
                  available for design and construction of replacement buildings. In its
                  response, FWS concurred with our recommendations and stated it was
                  addressing the situation.

Department Dams   Most of the approximately 2,300 dams located on the Department’s
                  lands are earthen structures which are used for irrigation, water
                  supply, or flood control. The Department tracked 457 of these dams
                  on its Technical Priority Rating Report. The dams on this list were
                  rated on technical information, observation by trained personnel, and
                  the potential for loss of human life. Technical information included
                  testing for seepage (water penetrating the dam) and hydrology (water
                  overtopping the dam). Fifty-nine of these dams received the most
                  critical ratings possible for seepage and/or hydrology. Should any of
                  these dams fail, human life would be at risk.

                  We visited 8 of the worst ranked dams. The dams were operated by
                  BIA and FWS, and below are two examples.

                  Weber Dam

                  Weber Dam, located on the Walker River Paiute Tribe Indian
                  Reservation in Nevada, was ranked as the worst dam on the Report.
                  This earthen dam was built in about 1934 on an earthquake fault. In
                  1983, the Bureau of Reclamation (BOR) issued a report that rated the
                  safety classification of the dam as “poor” because of an inadequately
                  sized spillway. A flood could cause the dam to overtop, potentially
                  resulting in loss of life in the downstream floodplain, which includes
                  the town of Schurz. Another identified issue was the potential for
                  failure of the foundation during an earthquake. In this case,
                  construction had begun in 2007 to build a replacement dam.

                  Santa Ana Dam

                  Santa Ana Dam, located on Santa Ana Pueblo lands in New Mexico
                  was the third worst dam on the Report. The earthen dam was built in
                  1960 for flood control. During heavy rains the dam protects the
                  approximately 110 residents that live nearby. Due to seepage and
                  hydrology problems, the dam did not work as intended. As a result of
                  a dam failure in the 1990’s, BIA cut a partial “breach” into the dam in
                  1997 to allow water to flow through. This action was intended to
                  divert water away from populated areas. However, this was intended



                                   14
                            as a stop-gap measure until funds were available to permanently
                            address the dam’s safety deficiencies.




                                        BIA partially breached the Santa Ana Dam in
                                        1997 as a stop-gap measure to prevent a dam
                                        failure. During heavy rains, water is diverted
                                        through the breach away from populated areas.


“Although our               The Department is aware of the dangers associated with many of its
maintenance crew is         dams and has taken some actions to mitigate them. For example,
doing all they can, they    where necessary they breached dams or lowered reservoir water levels
cannot keep up with         to reduce the stresses on dam structures. However, in many cases the
the deteriorating visitor   Department did not act on deficiencies until they reached a crisis
facilities.”                point. Program managers cited lack of funds or resources to fix the
                            problems. They also indicated that in some cases, the dams were no
  — Survey Response         longer needed and should be torn down, but they did not have the
                            authority to do so. We noted that BIA reported it is in the process of
                            installing early warning systems and preparing emergency action
                            plans at many of its dams. In addition, the Department reported that
                            BOR has emergency action plans already in place for all its high or
                            significant hazard dams.

                            A contributing factor to the problems we noted was the lack of
                            adequate maintenance on Department facilities. We addressed this
                            issue in our 2001 report, “Maintaining the Department of the
                            Interior’s Facilities: A Framework for Action (Report No. 2002-I-
                            0008).” Appendix E provides updated information on the
                            Department’s maintenance program.




                                             15
                       Employee Perceptions on Health and Safety

                       From March to May 2007, we conducted a Department-wide
                       employee health and safety survey to better understand employees’
                       perceptions of health and safety as part of our audit of the
                       Department’s health and safety program. We distributed the survey to
                       approximately 71,000 employees and received 9,133 responses, a
                       return rate of 13 percent.

Who Responded to the   The first four questions of our employee survey related to Department
Survey                 demographics, such as the bureau or office of the respondent; a
                       primary workplace description (such as an office building or an
                       outdoor environment); a general job classification; and whether the
                       individual was or was not a supervisor. We asked these questions so
                       that we could better quantify the results and provide feedback by
                       bureau. Contact information such as a name, address, phone number,
                       and email address was strictly voluntary.

                       We received the highest percentage of responses from the Bureau of
                       Reclamation (BOR), BIA, which includes Bureau of Indian
                       Education, and U.S. Fish and Wildlife Service (FWS). We received
                       the lowest percentage of responses from U.S. Geological Survey
                       (USGS) (Figure 1).

                                                            Employees   Responses    %
                         Department of Interior               71,280      9,133     12.8%
                           Bureau of Reclamation              5,624       1,083     19.3%
                           Bureau of Indian Affairs           9,714       1,864     19.2%
                           Fish and Wildlife Service           9,217      1,617     17.5%
                           Bureau of Land Management          11,030      1,313     11.9%
                           Office of Surface Mining
                              Reclamation and Enforcement       524         60      11.5%
                           National Park Service              21,487      2,416     11.2%
                           Minerals Management Service        1,606        131       8.2%
                           Departmental Offices                3,291       223       6.8%
                           U.S. Geological Survey              8,787       426       4.8%
                         Figure 1. Survey Response Rate by Bureau.

                       The greatest percentage of respondents (20 percent) stated they
                       worked in Management, Administrative, Clerical, and Office Services
                       roles. Teachers, administrative, maintenance, and other employees
                       who work in Indian schools comprised 13 percent of the respondents.
                       The category “Other” made up another 13 percent of the respondents.
                       “Other” included such occupations as museum curators, land
                       surveyors, librarians, and cultural resource specialists (Figure 2).
                       In addition, three-fourths of the survey respondents were in non-
                       supervisory roles.



                                          16
  Management, Administrative, Clerical,
                   or Office Services                                                    20%
                            Education                                     13%
                                Other                                    13%
                              Science
                                                                   9%
   Equipment, Facilities, or Maintenance                          8%
                  Resource Protection                        7%
            Accounting/Budget/Finance                        6%
           Engineering and Architecture                   5%
                           Park Ranger                  5%

                Information Technology                  4%

     Law Enforcement and Investigation               3%

                      Human Resources              3%

                            Firefighting         2%

                      Safety and Health         1%

                                       Figure 2. Respondents’ Area of Occupation.


                                      Sixty-seven percent of respondents reported their primary workplace
                                      is an office building. The next highest percentages were those that
                                      worked in schools and in the outdoors (Figure 3).
                                                                                   Warehouse 1%
                                                                                                  Laboratory 1%
                                                                       Other 10%

                                             Outdoors 10%


                                                                                                    Office Building 67%



                                           School 11%




                                                                        Figure 3. Workplace Description.

Employee Survey Results               Overall, 77 percent of respondents stated that they work in a safe and
                                      healthy environment and 80 percent stated that the public is safe when
                                      visiting their workplace. However, 22 percent stated that serious
                                      health and safety deficiencies currently exist in their workplace.
                                      Respondents provided numerous examples of serious, unsafe
                                      conditions.

                                      Below we summarize key results from the survey. Appendix F
                                      contains the complete survey results by bureau for each survey
                                      question.



                                                                   17
Uncorrected Health and           Overall, one out of five respondents (22 percent) stated that serious
Safety Issues                    health and safety deficiencies currently exist in their workplace. Only
                                 56 percent of respondents believed that serious health and safety
                                 issues did not exist. Results varied by bureau (Figure 4). BIA,
                                 Departmental Offices (DO)1 and National Park Service (NPS) had the
                                 highest percentages of respondents that reported the existence of
                                 serious deficiencies.

                                       BUREAU                                   PERCENT OF RESPONDENTS
                                          BIA                       29%                     25%                         43%


                                          DO                        28%               18%                         48%


                                         NPS                       26%                18%                          54%


                                         MMS                   21%              16%                           62%


                                         BOR                  20%               17%                           61%


                                         FWS                  18%          14%                              65%


                                         BLM                 15%          19%                               62%


                                        USGS              13%             19%                               64%


                                         OSM            7%         12%                                73%


                                                      SERIOUS DEFICIENCIES                                          SERIOUS DEFICIENCIES
                                                                                                  NEUTRAL
                                                             EXIST                                                      DO NOT EXIST
                                     Percentages do not equal 100 because the chart excludes “Not Applicable” responses.


                                 Figure 4. Results of Question Related to Uncorrected Health and Safety
                                 Deficiencies.

                                 The following is a summary of the most common areas of concern
                                 from the comments we received that identified existing health and
                                 safety issues.

“The building I work in has      Air Quality and Exposure to Hazardous Substances
a strong history of asbes-
tos problems. It falls from      Survey respondents commented on poor air quality; heating,
the ceiling tiles from time to   ventilation, and air conditioning problems; and exposure to hazardous
time. They can't even            substances at their workplaces. Reasons given for the poor air quality
change the lights during         included dirty air filters, inadequate building ventilation, construction
the day when we are there.       debris, and falling brick dust from deteriorating buildings. Many
I fear not only for my           respondents were concerned about exposure to hazardous substances
health, but that of contrac-     such as mold, radon, asbestos, and cigar and cigarette smoke. Others
tors, customers, and co-         were concerned about being continually exposed to rodent and insect
workers. I have never            infestations. These concerns, if not mitigated, may cause serious
been so sick as I have           illnesses over the long-term.
been since my arrival to         _________________________
                                 1
this building.”                   Departmental Offices includes Office of the Secretary; Office of Policy,
                                 Management, and Budget; Office of the Solicitor; Office of the Special Trustee for
     — Survey Response           American Indians; and Office of the Chief Information Officer. The survey
                                 excluded employees from the Office of Inspector General.


                                                         18
                                During our audit we found an instance
                                of mold at a BIA school administration
                                building. Following our discovery, the
                                BIA replaced the wallboard that
                                contained the mold. According to the
                                Environmental Protection Agency web
                                site, all molds have the potential to
                                cause health effects and symptoms,
                                including allergic reactions.

                                Additionally, employees also expressed
                                concern about water leaks and flooding
                                damage that had not been mitigated.
                                Their concern included the potential for
                                mold.                                    Mold in employee work area.
                                                                          Note: We understand that this
                                                                          wall has since been removed, but
                                                                          a mold remediation expert was
                                                                          not used.


                                Maintenance and Janitorial Services

                                Employees expressed concern regarding the lack of general
                                maintenance and janitorial services. Items as simple as changing light
                                bulbs and filling holes were not being addressed.
“We have 6 miles of de-         Some of the maintenance related concerns included:
graded boardwalk where
countless employees and            ► Overloaded electrical systems and exposed wiring.
visitors have fallen and suf-
fered life changing injuries,      ► Tripping and slipping hazards, including inadequate snow and
yet we are resistant to                ice removal and uneven walking surfaces. Slips, trips, and
change the tread or close              falls contributed to 26 percent of the Department’s workers
the trail.”                            compensation claims in 2006.
     — Survey Response             ► Hazardous trees on trails and picnic areas that are not being
                                       addressed.

                                Another area of concern was the insufficient or lack of regular day-to-
                                day janitorial services. Employees commented on filthy restrooms
                                and workspaces. Some employees also believe that they have
                                contracted illnesses related to the unsatisfactory, unclean working
                                conditions.




                                                 19
                              Handicap Accessibility

“We have had park visitors
                              The Architectural Barriers Act of 1968 requires that buildings and
in wheelchairs who had to     facilities that are designed, constructed, or altered with Federal funds
crawl up the stairs to meet   or leased by a Federal agency, comply with Federal standards for
with our staff.”              physical accessibility. Employees reported that:

                                 ► Handicap accessible door openers do not work.
     — Survey Response
                                 ► Elevators do not work or do not exist.

                              Structural

                              Under the structural category we considered such conditions as lack of
                              seismic reinforcement, shifting walls and cracks in walls, and
                              employees working in condemned buildings. Apparently, some
                              Department employees are working in or dealing with structurally
                              challenged buildings.

                              The scope of our employee survey did not include validating the
                              existence of health and safety deficiencies cited by the respondents.
                              However, we did obtain additional information on some concerns as
                              described below.

                              Main Interior Building

                              Twenty-eight percent of respondents from Departmental Offices
                              stated that serious health and safety deficiencies exist in their
                              workplace. We attribute this high percentage mainly to the Main
                              Interior Building Modernization Project. The Modernization Project
                              is a multi-year rehabilitation designed to improve the infrastructure,
                              including heating, ventilation, and air-conditioning systems;
                              plumbing; and electrical systems. The chief purpose of the project is
                              to improve the health and safety conditions for all of the building’s
                              employees and visitors. Approximately 1,700 employees work in the
                              Main Interior Building. The National Institute for Occupational
                              Safety and Health completed a health hazard evaluation of the
                              Modernization Project in August 2006 and made recommendations,
                              including improving the indoor air quality of the building.

                              In January 2007, at the National Business Center’s (NBC) request,
                              BLM conducted a Compliance Assessment - Safety, Health, and the
                              Environment (CASHE) evaluation for the Main Interior Building.
                              This site assessment found numerous safety and environmental related
                              deficiencies. While the Department states that it is addressing the
                              deficiencies and precautionary measures are being taken to keep
                              employees and the public safe, employees continue to express
                              concerns regarding their health that they attribute to working in the
                              building.

                                               20
                                BIA Standing Rock Agency

“The serious risk of struc-     Approximately 40 employees work in the Standing Rock Agency
tural collapse indicated in     building in Fort Yates, North Dakota despite a structural investigation
the [structural inspection]     identifying several building deficiencies and concerns voiced by BIA
report makes this facility an   safety personnel. An engineering firm visited the building in
imminent danger hazard un-      December 2003 and made several recommendations, two of which
der the Federal OSHA crite-     dealt with stabilizing the foundation and establishing wall-to-floor ties
ria and under that standard,    to further stabilize the building. According to a BIA Deputy Realty
immediate measures must         Officer, the Bureau responded by attempting to cover the cracks in the
be taken to ensure the          walls by filling them with rubberized caulking and by using long bolts
safety of employees and         to stabilize brick walls. However, all repairs have been cosmetic; the
visitors.”                      walls continue to crack and the floors shift. In addition, a new cooling
                                system was installed that leaks. Now, employees also have to deal
    — BIA Safety Official       with wet insulation hanging down like a “water balloon,” damp
                                carpet, and light fixtures full of water.

                                NPS Alaska
                                Aviation

                                NPS pilots at
                                Denali and Lake
                                Clark National
                                Parks in Alaska
                                work in conditions
                                that have been
                                reported as unsafe
                                for nearly 10 years
                                by Departmental
                                aviation safety
                                experts. The
                                airplanes are          Airplane stored on the runway at Lake Clark
                                primarily used for     National Park and Preserve.             NPS Photo
                                search and rescue,
                                wildlife surveys, scientific research, and law enforcement patrol.
                                Denali National Park alone has over six million acres of land to patrol.

                                Due to the lack of aviation hangars, aircraft at these two parks are
                                stored outdoors in the harsh winter climate. This requires NPS pilots
                                to perform hours of extensive preflight inspections in sub-zero
                                weather with wind chills many times reaching minus 70 degrees
                                Fahrenheit; subjecting themselves to the harsh elements while
                                attempting to reduce the dangerous flight risks involved with storing
                                aircraft outside. As a result of these conditions, emergency responses
                                are also hindered, leaving employees and the public at risk.
                                Additionally, there is a risk of sabotage to the airplanes when left
                                unsecured. Park managers stated they have requested funding for


                                                 21
                                 several years to mitigate this serious health and safety risk, but their
                                 attempts have been unsuccessful.

Reporting and Mitigation of About two-thirds of respondents stated that health and safety concerns
Issues                      are addressed in a timely manner and that the more serious health and
                            safety issues are corrected before the less serious ones. In addition, 72
                            percent of employees believed that their bureau was doing an effective
                            job of reducing job-related accidents at the workplace (Figure 5).

                                             QUESTIONS                           PERCENT OF RESPONDENTS
                                      Health and safety concerns that are
                                      reported to management are                          64%         19%         14%
                                      addressed in a timely manner.

                                      I believe my bureau is doing an
                                      effective job of reducing job-related                72%              18%     9%
                                      accidents at my workplace.
                                      The more serious health and safety
                                      issues in my workplace are                          68%          17%        11%
                                      corrected before the less serious
                                      ones.
                                      Percentages do not equal 100
                                      because the chart excludes “Not         FAVORABLE     NEUTRAL   UNFAVORABLE
                                      Applicable” responses.

                                   Figure 5. Results of Questions Related to Reporting and Mitigation.

                                 Some respondents indicated they are reluctant to report a health and
                                 safety concern because of fear of reprisal and in some cases, a hostile
                                 working environment. Some respondents also felt reluctance because
                                 of pressure to maintain a good safety record. For example, although
                                 one respondent was encouraged to seek medical treatment the day of
                                 an accident, they were discouraged from taking the next day off
                                 because it would be considered a “lost time incident.”

                                 The comments identified several challenges facing the Department in
                                 getting issues mitigated. These challenges included:

“Concerns are eventually         ► Shortage of funding and personnel. This includes shortage of
addressed, but not quickly;         maintenance and safety staff. Bureaus have to do more with fewer
in addition, there is always        resources. Respondents stated that decreases in staffing and
backlash directed at the            increased workloads have resulted and could potentially result in
employee(s) who raised              more accidents. Also, we found during our audit that some
the concerns. Concerns              bureaus do not have separate funding for the mitigation of health
expressed anonymously               and safety deficiencies and thus are competing with other
are actually ignored and            programs for funding.
considered invalid, rather
than investigated.”              ► Lack of or untimely response from management. Respondents felt
                                    that concerns raised to management were ignored; not taken
      — Survey Response             seriously; or if addressed, sometimes took years to correct.


                                                       22
                               ► Lack of or untimely response from building owners. Although we
                                   did not review lease agreements, bureau management should hold
                                   building management accountable if maintenance and janitorial
                                   services are not being provided.

                               Respondents also stated that health and safety concerns are not always
                               mitigated based on risk or seriousness. Instead concerns are addressed
                               only if there is a “quick fix” or the cost is minimal.

Priority of Health and         As demonstrated in Figure 6, 80 percent of employees believed that
Safety                         health and safety was a priority of their fellow workers; however, for
                               their supervisors and senior management the percentages dropped to
                               77 percent and 66 percent, respectively. The Departmental Offices
                               responded with only a 45 percent belief that health and safety was a
                               priority for senior level management. We attribute this low
                               percentage primarily to the concerns related to the Main Interior
                               Building as previously discussed.


                                       QUESTIONS                         PERCENT OF RESPONDENTS

                                Health and safety is a priority of
                                my fellow workers.                                 80%                  14% 6%



                                Health and safety is a priority of
                                my immediate supervisor.                           77%                 14%    8%



                                Health and safety is a high
                                priority of senior level                         66%             19%         14%

                                management.
                                Percentages do not equal 100
                                because the chart excludes “Not      FAVORABLE         NEUTRAL   UNFAVORABLE
                                Applicable” responses.
                               Figure 6. Results of Questions Related to Health and Safety as a Priority.

A Reactive Versus              Throughout our review of the survey comments, concerns about the
Proactive Culture              Department and bureau culture of health and safety were raised. The
                               general theme of numerous comments is that health and safety is “lip
“There is an incredible        service” only, is second to getting the job done and that there is a
stress in the workplace to     reactive versus proactive culture in regards to health and safety.
"get the job done" while at
the same time having less      Specifically, comments concerned:
resources to do the job.
                                   ► Employees taking unnecessary risks to get the job done.
This environment leads to
well meaning employees
                                   ► Lack of safety awareness in the workplace. Specifically,
cutting corners and taking
greater risks to get the job            managers are not promoting safety to their employees.
done.”
      — Survey Response

                                                    23
                                     ► The general complacency of managers and fellow employees
                                         of the substandard conditions in which they are required to
“We are expected to push                 work.
to the point and beyond of
physical exhaustion and in           ► Lack of accountability for health and safety and no
many cases permanent life                consequences for not performing a duty safely.
debilitating injuries have
resulted and no one really           ► Lack of access to information, such as test results for
cares. We are punished if                hazardous substances in facilities or safety plans.
we are hurt and slow down
the pace of work.”                   ► Safety officers do not have appropriate authority.
     — Survey Response
                                     ► The belief that the Department is not required to comply with
                                         requirements such as Occupational Safety and Health
                                         Administration (OSHA) standards.

Hazardous Duty                   We also developed questions specifically related to those employees
                                 whose jobs were considered hazardous duty. The intent of these
                                 survey questions was to determine if those hazardous duty employees
Hazardous duty is defined as     were receiving the appropriate training on their duties, appropriate
those occupations that may       personal protective equipment (PPE), and training on the use of their
cause extreme physical dis-
                                 equipment. PPE includes a variety of devices and garments designed
comfort or distress, or duties
performed under circum-          to protect employees from serious workplace injuries or illnesses
stances in which an accident     resulting from contact with chemical, radiological, physical, electrical,
could result in serious injury   mechanical, or other workplace hazards.
or death. Examples include
occupations that require water   Fifteen percent, or 1,385 of the respondents, stated that their job was
search and rescue, fire fight-   classified as a hazardous position. More than three-fourths of these
ing, exposure to extreme tem-    employees stated that they are receiving the appropriate training and
peratures for a long period of   equipment related to their duties. See Figure 7 for the results by
time, or working in rough and    question.
remote terrain.


                                       QUESTIONS                       PERCENT OF RESPONDENTS
                                  I have been trained to safely
                                  perform the duties associated                  85%               7% 8%
                                  with my job.
                                  I have received safety
                                  equipment appropriate to my                   80%               8% 11%
                                  job.
                                  I have received training in the
                                  appropriate use of my safety                   83%               8% 8%

                                  equipment.
                                  Percentages do not equal 100
                                  because the chart excludes        FAVORABLE    NEUTRAL       UNFAVORABLE
                                  “Not Applicable” responses.

                                 Figure 7. Results of Questions Related to High Hazard Jobs.




                                                    24
                               While the results seem positive, we are still concerned about the many
                               employees performing their duties without required and necessary
                               training and equipment. We received numerous comments that
                               related to employees:
“We need to get up-to-date
                                   ► Purchasing their own equipment, such as safety goggles, or
night vision and heavy duty
flack jackets into every pa-           purchasing equipment for others.
trol vehicle -- it will cost
                                   ► Having outdated or expired equipment.
money, but what is the cost
of a human life.”
                                   ► Receiving and using equipment without appropriate training.
     — Survey Response
                                   ► Not receiving initial or refresher training on duties.

                                   ► Not receiving adequate medical monitoring.

                               Employees commented that requests for training and equipment are
                               denied because of lack of funding and management support.

                               The Departmental Manual (485 DM 20) requires each bureau and
                               office to establish a written PPE program that includes assessment of
                               hazards, selection of the necessary PPE to protect employees, and
                               requirements for employee use of the equipment. The Manual also
                               requires each bureau and office to ensure employees use the PPE, that
                               the PPE is adequately maintained, and that training is provided. We
                               did not audit the effectiveness of the bureaus’ PPE programs, but the
                               bureaus may want to consider revisiting its program to ensure
                               employees that require PPE are receiving it and the appropriate
                               training.

                               Radio Communications

                               We issued an audit report “Department of the Interior – Radio
                               Communications Program” (Report No. C-IN-MOA-0007-2005) in
“Our biggest safety issue at   January 2007 in which we concluded that the Department has an
[our park] is the lack of a    unsafe and unreliable radio communications environment that
reliable functioning radio     jeopardizes the health and safety of employees and the public. We
system that is paramount       received numerous comments from personnel who further
to the safety of our park      substantiated that there is a serious safety issue related to the lack of
employees.”                    reliable radio communications. Specifically, radios are outdated,
                               are not working, and coverage is minimal. Also, due to decreases in
    — Survey Response          staffing, many employees are working in remote locations alone
                               without adequate communications. Although the Department is
                               taking action to address our recommendations, this issue should
                               continue to be on the forefront of Departmental priorities.

Department’s SafetyNet         We asked employees if they had accessed the Department’s SafetyNet
Website                        website to obtain health and safety information to determine if there
                               was an awareness of not only the website but also of the Department’s

                                                 25
                               Office of Occupational Health and Safety (OHS). Only 36 percent of
                               employees had accessed the website. Many respondents stated that
                               they did not even know the website existed.

                               The OHS position responsible for updating the website was vacant for
                               a year and was just recently filled. Therefore, the site has not been
                               kept up-to-date. Once the website is back on track, it can be a
                               valuable resource for all employees. The Department should promote
                               more awareness of its SafetyNet website and ensure that information
                               is updated regularly.

Additional Issues Raised       We received thousands of comments from the survey. We wanted to
                               bring as many issues to light as possible in this report so that
                               Department and bureau management would be aware of employee
                               concerns. Below is a summary of the areas of concern that did not
                               specifically apply to our survey questions above.

                               Security and Emergency Preparedness

                               In the category of general security and emergency preparedness, we
“Last fall a fire alarm went   included such issues as facility security, terrorism, fire protection and
off and the entire building    drills, border security, hurricane and earthquake preparedness, and
was evacuated, except for      faculty and student confrontation.
the 7th floor. The alarm
didn't ring on the 7th floor   Survey respondents are concerned about easy entrance into their
and no one came to check       workplaces, lack of qualified personnel in security positions and at
on us.”                        guard stations, increased violence on Federal lands, and protection in
                               severe weather and from possible terrorism. Employees also indicated
     — Survey Response         that their offices do not have emergency response plans. We also
                               received numerous comments related to the lack of adequate fire
                               alarms, fire suppression, egress, and fire drills.

                               The Virginia Tech shootings occurred during the period that
“This week I personally        employees were responding to our survey. As such, many concerns
was afraid to be in a class-   were voiced about the potential for violence in BIE schools. We felt
room with a student…”          that some of the comments warranted attention by the Bureau of
                               Indian Education and these were provided to appropriate officials for
     — Survey Response         further review. The comments not only indicated potential violence
                               by students, but we received comments regarding the overall security
                               of the schools and the potential for outside individuals having easy
                               access to the schools. Some schools are located adjacent to prisons
                               and along the Mexican border and comments indicated that the
                               schools are not secure.

                               General Health and Safety

                               We received many comments related to general health and safety.
                               Some of the more significant comments related to the lack of attention
                               to work-related stress and mental health. Respondents commented

                                                26
                                 that they are working under significant stress for a variety of reasons,
                                 such as hostile working environments, performing additional duties
                                 because of short-staffing, and the pressure of getting work
                                 accomplished on stricter deadlines with less resources.
“Mental health is ignored
                                 Additionally, employees expressed concern related to:
and those with work related
mental health issues are
                                     ► Lack of fitness programs at their bureau.
marginalized. Stress and
depression are considered
                                     ► The need for ergonomic evaluations and ergonomically-
always to be a defect in the
                                         friendly office equipment.
person and not a result of a
work related situation.”
                                     ► Lack of safe drinking water. Employees stated that drinking
                                         water is not available and sometimes they have to buy their
    — Survey Response
                                         own bottled water. If the water fountains are functioning, the
                                         water is discolored and has odors.

                                     ► Lack of first-aid equipment.

                                     ► Lack of training in specialized areas, such as driving all-terrain
                                         vehicles or working in confined spaces.

                                     ► Lack of general training, such as CPR/first aid and supervisor
                                         training, which is required by OSHA.
Bureau Efforts Recognized Even though survey comments indicated that there are numerous
                              health and safety concerns in the Department, other employees were
“The goal of the Office of    supportive of their bureaus’ efforts, especially at the local level, to
the Facility Manager and      manage health and safety for employees. For instance, one BOR
Health and Safety Officer is  employee stated that, "I have found Reclamation's safety practices and
first and foremost a priority concerns to be first-class." Employees were appreciative of the efforts
in our Region. These of-      and dedication of their safety officers to maintain safe working
fices take the well being of  environments and acknowledged that management support is a key to
employees as their number     establishing a successful safety-conscious culture. Employees also
one priority.”                provided examples of health and safety efforts at the field office level,
                              such as the active role of safety committees.
 — FWS Survey Response
                                 Conclusion

                                 The Department needs to take immediate steps to prevent existing
                                 hazards from escalating into more serious ones.

                                 We believe that the following recommendations will help the
                                 Department prevent the escalation of health and safety deficiencies.




                                                  27
Recommendations

We recommend the Secretary:

   1. Appoint the Assistant Secretary for Policy, Management
      and Budget as the DASHO to comply with 29 C.F.R. §
      1960.6.

      DOI Response

      On January 9, 2008, the Secretary appointed James Cason,
      Associate Deputy Secretary, in his delegated capacity as the
      Assistant Secretary for Policy, Management and Budget, as the
      Department’s DASHO.

      OIG Analysis of DOI Response

      We consider the recommendation to be resolved and
      implemented.

   2. Establish a full-time position, called Chief of Health and
      Safety that serves as the DASHO’s advocate for health and
      safety. This advocate would work with the existing
      DASHO Council and Asset Management Team to ensure
      coordination and to ensure that identified issues are raised
      to the appropriate level for decision making.

      DOI Response

      The Department concurred with the recommendation and
      stated that it is in the process of creating a Chief of Health and
      Safety to serve as the DASHO’s advocate for health and safety
      and who will work with the DASHO Council and the Asset
      Management Team. A review will be completed and
      recommendations made on ways to improve management
      focus on safety issues by strengthening the bureau and field
      health and safety organizational structure. The DASHO
      Council has been expanded to include the Associate Director
      of Facility and Property Management, who chairs the Asset
      Management Team. The Department’s Deputy DASHO has
      been added to the Asset Management Team and four members
      of the DASHO Council also currently serve on the Asset
      Management Team.

      OIG Analysis of DOI Response

      We consider the recommendation to be resolved, but not
      implemented.

                28
3. Strengthen its Department-wide health and safety program
   that covers employees and the general public. This should
   be based on the elements of a well-designed health and
   safety program described in Appendix D and should
   reduce the reliance on collateral duty assignments by
   establishing a sufficient number of full-time health and
   safety personnel.

   DOI Response

   The Department partially concurred with the recommendation
   in the draft audit report which called for the Department to
   develop and implement a Department-wide health and safety
   program that covered employees and the public. The response
   stated that the Department and its bureaus currently have a
   good health and safety program, but acknowledged that the
   program can be strengthened by a more focused strategic plan
   with more measurable goals. The Departmental strategic plan
   for health and safety will be updated to incorporate the
   elements of a well-designed health and safety program,
   including staffing levels.

   OIG Analysis of DOI Response

   We recognize that the Department has an established health
   and safety program in place. The intent of the original
   recommendation was to improve the program by implementing
   more proactive measures to protect the health and safety of
   employees and the public. We are pleased that the
   Department’s action plan included with its response identified
   significant measures to be taken in this regard. Nevertheless,
   for clarity, we revised the report to recommend that the
   Department “strengthen” the program. We consider the
   revised recommendation resolved, but not implemented.

4. Develop and implement a Department-wide action plan
   with milestones to eliminate significant health and safety
   deficiencies.

   DOI Response

   The Department concurred with the recommendation and
   stated that as part of a Department-wide action plan to enhance
   occupational health and safety, its action plan includes tasks to
   develop a Department-wide framework for identifying and
   categorizing significant deficiencies and developing bureau-
   specific plans to eliminate the significant deficiencies. Each
   bureau plan will be based on a common definition of

            29
   “significant deficiency” and will use a common risk
   assessment methodology to determine corrective actions
   necessary within budgetary and operational constraints.


   OIG Analysis of DOI Response

   The action plan included with the response identified measures
   to be taken that should help eliminate significant health and
   safety deficiencies. The Department’s strategy appears sound
   and, therefore, we consider the recommendation resolved, but
   not implemented.

5. Develop a Department-wide funding strategy to ensure
   that health and safety issues are timely and effectively
   addressed.

   DOI Response

   The Department concurred with the recommendation and
   stated that it has funding set aside for cross-cutting safety
   initiatives and the bureaus also have budget processes that
   prioritize their health and safety needs. The primary
   responsibility for addressing health and safety issues belongs
   to the bureaus where the issues are identified. The Department
   will identify ways to strengthen the process for ensuring that
   issues are corrected and will reprioritize funding as needed to
   implement the action plan to address significant health and
   safety deficiencies.

   OIG Analysis of DOI Response

   Although the Department asserted that funding is available and
   bureau budget processes are in place, we still identified serious
   deficiencies during our audit. This underscores the difficult
   challenge confronting the Department. However, the action
   plan included with the response includes initiatives that should
   help eliminate significant health and safety deficiencies.
   Therefore, we consider the recommendation resolved, but not
   implemented.

6. Develop a plan that ensures all managers, employees, and
   health and safety staff receive appropriate training
   concerning health and safety.

   DOI Response

   The Department concurred with the recommendation and
   stated that it will develop an inventory of currently available

            30
   safety and health training, including delivery methods,
   mandatory requirements for specific positions, and required
   frequency for completing mandatory training. The
   Department will maximize the use of DOI Learn for training
   delivery. Training requirement for all supervisors and
   employees will be identified.

   OIG Analysis of DOI Response

   The action plan included with the response identified measures
   that when implemented should help ensure all managers,
   employees, and health and safety staff receive appropriate
   training. Therefore, we consider the recommendation
   resolved, but not implemented.

7. Improve the SMIS system by:

   a. simplifying the data entry system,

   b. requiring input of both employee and visitor accidents,

   c. establishing controls to ensure that incident reporting
      data is accurate and complete, and

   d. enhancing security.

   DOI Response

   The Department concurred with the recommendation and
   stated that while SMIS provides valuable health and safety
   information to managers, there are areas where its performance
   can be enhanced. A work group has been formed to review the
   performance of the existing SMIS within the context and
   recommendations of the report, remedy issues with the
   existing SMIS, and review alternative solutions to provide the
   most effective reporting and tracking program.

   OIG Analysis of DOI Response

   The Department’s response and its action plan include
   measures that should improve the identification and tracking
   of health and safety incidents. However, we want to
   emphasize that the system should fully identify and track
   incidents for both employees and visitors. We consider the
   recommendation resolved, but not implemented.




            31
              Appendix A — Objective, Scope, Methodology,
                         and Internal Controls


Objective                 To determine if the Department of the Interior and its bureaus have effectively
                          identified, prioritized, and mitigated health and safety issues related to its
                          constructed infrastructure that could adversely affect employees and the public.




Scope                     The scope of our audit covered fiscal years 2002 to the present and included
                          deferred maintenance and health and safety activities at the Departmental level
                          and all bureaus. Upon completion of our audit survey, our primary focus was
                          limited to NPS, BLM, FWS, BOR, and BIA/BIE. These bureaus manage the
                          majority of the Department’s infrastructure. We excluded activities related to
                          homeland security, wildland fire, border security, law enforcement, and the
                          Aviation Management Directorate (formerly known as the Office of Aircraft
                          Services).




                         To accomplish the audit objective, we:
Methodology
                         ► Conducted the audit in accordance with Government Auditing Standards
                           issued by the Comptroller of the United States.

                         ► Included tests of records and other audit procedures that were considered
                           necessary.

                         ► Gained an understanding of the Department’s health and safety programs.

                         ► Interviewed Departmental and bureau officials at the headquarters, regional,
                           and field office levels.

                         ► Conducted a formal survey of Departmental and bureau employees to identify
                           their concerns regarding health and safety.

                         ► Visited selected bureau sites to identify unmitigated health and safety issues.
                           We selected sites based on preliminary assessments that identified a potential
                           for health and safety issues.

                         ► Identified best practices from other federal agencies and private industry.

                         ► Analyzed management processes for identifying, prioritizing, and correcting
                           health and safety deficiencies related to the Department’s constructed
                           infrastructure.

                         ► Determined the effect of unmitigated health and safety deficiencies (e.g.
                           facility closures, park/site closures, deaths, illnesses, and environmental
                           impacts).

                         ► Estimated the costs of incidents based on OSHA statistics and cost information
                           methodology developed by the National Safety Council.


                                            32
                    We invited all of the approximately 71,000 Department employees to participate in
Employee Survey     the survey. The survey did not include volunteers or contractors. The survey was
Methodology         conducted from March to May 2007. Employees completed the survey primarily
                    through a website developed in-house by the OIG. For those bureaus and offices
                    that did not have Internet access, employees were able to fax or mail their
                    responses. This included BIA, Office of the Solicitor, Office of the Special Trustee
                    for American Indians, and Office of Hearings and Appeals.




                     As part of the audit, we performed an evaluation of the Department and its bu-
Internal Controls    reaus’ systems of internal controls related to the identification, prioritization,
                     and mitigation of health and safety deficiencies for constructed infrastructure.
                     This evaluation was conducted at Departmental and bureau offices to the extent
                     we considered necessary to accomplish the audit objective. Although we found
                     that the Department has progressed in identifying, prioritizing, and mitigating
                     health and safety deficiencies, we found unmitigated health and safety deficien-
                     cies and weaknesses in the safety program. These deficiencies are discussed in
                     the Results of Audit section of the report. Our recommendations, if imple-
                     mented, should improve the internal controls in the areas with identified weak-
                     nesses. We also reviewed the Department of the Interior’s Performance and
                     Accountability Reports for fiscal years 2005 and 2006, and noted that in 2005
                     the Department reported material weaknesses related to maintenance of Bureau
                     of Indian Affairs detention facilities and inadequate Department-wide mainte-
                     nance management capability. In 2006, the Department downgraded the mate-
                     rial weakness related to detention centers to bureau specific with a targeted cor-
                     rection date of 2008. In regards to the material weakness related to inadequate
                     maintenance management capability, the Department determined that this weak-
                     ness has been corrected because the facility management system had been im-
                     plemented.




                                       33
                               Appendix B — Related Reports

The Office of Inspector General and the Government Accountability Office (GAO) issued the
following reports on deferred maintenance and health and safety since FY2000.



Program Assessment Rating          The OIG review found that BIA has made progress in implementing three OMB
Tool, Review of Bureau of          recommendations for program improvement. We addressed each
Indian Affairs Road                recommendation in the report and provided suggestions that BIA might take to
Maintenance Program (Report        improve its Program Assessment Rating Tool rating.
No. C-RR-BIA-0010-2006)
March 2007




Testimony: Department of the       GAO reported that while the Department made progress in addressing prior
Interior, Major Management         recommendations related to deferred maintenance information, the maintenance
Challenges (Report No. GAO-        backlog continued to grow. The Department has not received adequate funding
07-502T) February 2007             for the repairs and maintenance of facilities and, as a result, the deterioration of
                                   facilities could adversely impact public health and safety, reduce employees’
                                   morale and productivity, and increase the need for costly major repairs to
                                   structures and equipment.



Department of the Interior,        The OIG audit found that the Department and its bureaus did not effectively
Radio Communications               manage the radio communications program. Radio communications in the
Program (Report No. C-IN-          Department were unsafe and unreliable for three primary reasons: (1) The
MOA-OOO7-2005) January             poorly maintained infrastructure posed physical safety hazards, and did not
2007                               support reliable communications, (2) The new radio technology adopted by the
                                   Department did not effectively meet users' needs, and (3) the Department had a
                                   fragmented radio communications program that failed to connect the two
                                   critical components - infrastructure and equipment.



Indian Irrigation Projects –       GAO reported that BIA estimated the cost for deferred maintenance at its 16
Numerous Issues Need to be         irrigation projects at about $850 million for 2005, although this estimate was
Addressed to Improve Project       being refined. BIA’s management of some irrigation projects had serious
Management and Financial           shortcomings that undermine effective decision-making about project operations
Sustainability (Report No.         and maintenance.
GAO-06-314) February 2006




The National Park Service's         The OIG audit found that NPS did not accurately report its facility maintenance
Recording of Facility               expenditures. Consequently, it was not possible to determine how much was
Maintenance Expenditures            spent on facility maintenance efforts. We believed the problem was one of
(Report No. C-IN-NPS-0013-          inaccurate data collection or recording rather than non-performance.
2004) January 2005




                                                       34
Flash Report: Public Safety     OIG reported that aircraft hangars at Floyd Bennett Field were in dilapidated
Concerns At Floyd Bennett       condition and presented potential safety risks to the visiting public. Dangerous
Field, Gateway National         conditions included: unsafe structural conditions including a partially collapsed
Recreation Area (Report No. C   roof; storage of unsecured machinery, industrial equipment, chemicals, and other
-IN-NPS-0001-2005)              unlabeled and unknown substances; and uncovered vertical shafts, approximately
November 2004                   four to five feet deep, some of which were filled with water, in the concrete floor
                                of both aircraft hangars.



Special Report: Neither Safe    The OIG audit found that BIA has failed to provide safe and secure detention
nor Secure: An Assessment of    facilities throughout Indian Country. The assessment revealed a long history of
Indian Detention Facilities,    neglect and apathy on the part of BIA officials, which resulted in serious safety,
(Report No. 2004-I-0056)        security, and maintenance deficiencies at the majority of the facilities. The
September 2004                  maintenance backlog at these facilities was significant, funding was haphazardly
                                managed by BIA, training of personnel was inconsistent and unpredictable, and
                                basic jail administration procedures and standards were neither followed nor met
                                at most facilities.


Testimony: Recreation Fees-     GAO reported that H.R. 3283 would provide agencies with a permanent source
Comments on the Federal         of funds to better address their maintenance backlog and by making the program
Lands Recreation Enhancement    permanent, the act would provide agencies an incentive to develop a system to
Act, H.R. 3283 (Report No.      track their deferred maintenance backlogs.
GAO-04-745T) May 2004




Bureau of Indian Affairs –      The OIG audit found that BIA did not ensure that school buildings were not
School Construction Program     occupied until identified safety deficiencies were corrected and BIA had
— Improvements Needed to        inspected and certified the facilities for occupancy.
Ensure Safety And Program
Performance (Report No. W-
FL-BIA-0047-2002) February
2004



Bureau of Indian Affairs        GAO reported that BIA’s Facility Management Information System is designed
Schools — New Facilities        to address the previous data systems’ shortcomings and appears to have the
Management Information          capability to meet BIA’s needs if the data entered is accurate and timely. GAO
System Promising, but           determined that measures for controlling the quality of new data for individual
Improved Data Accuracy          schools were not working well and nearly half of the proposed entries coming
Needed (Report No. GAO-03-      through the system were inaccurate and incomplete. However, based on a
692) July 2003                  review of data for 14 BIA schools, GAO concluded that none of the unentered
                                data were for urgent or safety deficiencies that needed immediate attention.



Bureau of Land
Management— Improvements        The OIG report identified that BLM needed to improve its current performance
Needed In Developing and        goals and measures for its program activity to reduce threats to public health,
Reporting On GPRA Goals         safety, and property. Additionally, the OIG recommended that BLM consider
and Measures: Reducing          adding at least two comprehensive safety and property goals and/or measures
Threats to Public Health,       related to visitor and employee safety and deferred maintenance.
Safety, and Property” (Report
No. 2002-I-0047) September
2002
                                                   35
National Park Service: Status   GAO reported that NPS had made progress in developing a new asset
of Efforts to Develop Better    management process that should, when fully and properly implemented,
Deferred Maintenance Data       provide the agency with more accurate and reliable estimates of the amount of
(Report No. GAO-02-568R)        deferred maintenance of its assets. However, while GAO considered the new
April 2002                      process promising, GAO concluded that its success could not be determined
                                until staff in each of the park units was trained and the new asset management
                                process was fully and properly implemented.



Maintaining the Department of   The OIG report identified two levels of action that the Department of the
the Interior’s Facilities, A    Interior needed to take to implement an effective facilities maintenance
Framework for Action (Report    program. The most urgent short-term action was for the Department to act
No. 2002-I-0008) December       immediately to reduce the deferred maintenance backlog. The second action
2001                            was to develop a proactive maintenance program by: appointing a Departmental
                                Chief Maintenance Officer, exploring the establishment of a single maintenance
                                budget, conducting condition assessments, establishing performance measures,
                                and implementing an integrated facilities management system.




Park Service – Agency is Not    GAO reported that structural fire safety efforts in national parks were not
Meeting its Structural Fire     effective. These deficiencies included such fundamental things as inadequate
Safety Responsibilities         fire training for employees, inadequate or nonexistent fire inspections, and —
(Report No. GAO/RCED-00-        for many buildings — inadequate or nonexistent fire detection or suppression
154) May 2000                   systems. These deficiencies occurred principally because local park managers
                                were not required to meet minimum structural fire safety standards and because
                                structural fire activities had been a low priority within the agency for many
                                years.




Deferred Maintenance, U.S.      The OIG report revealed that FWS did not allocate all funding for deferred
Fish and Wildlife Service       maintenance projects on the basis of project priorities and did not ensure that
(Report No. 00-I-226) March     available funding for deferred maintenance projects were used for its designated
2000                            purposes. The OIG also found deferred maintenance data to be unreliable and
                                deferred maintenance costs undeterminable as all assets had not received
                                condition assessments.




                                                  36
                     Appendix C — Sites Visited and Contacted



Bureau of Indian Affairs / Bureau of Indian Education
   Antelope Dam, SD                                            Navajo Regional Office, Gallup, NM*
   Beclabito Day School, Beclabito, NM                         Office of Facilities, Environmental, Safety, and Cultural
   Blackfeet Detention Facility, Browning, MT                      Resources—Facilities Management, Reston, VA
   Captain Tom Dam, NM                                         Oglala Community School, Pine Ridge, SD
   Chinle Agency Office, Chinle, AZ                            Okreek School, Okreek, SD
   Chinle Boarding School, Many Farms, AZ                      Pine Ridge Detention Center, Pine Ridge, SD
   Crow Dam, MT                                                Safety of Dams Complex, Ronan, MT
   Division of Natural Resources, Branch of Irrigation,        Sanostee Day School, Sanostee, NM
        Power, and Safety of Dams, Denver, CO                  Santa Ana Dam, NM
   Great Plains Region, Aberdeen, SD*                          Sherman Indian School, Riverside, CA
   Haskell Indian Nations University, Lawrence, KS*            Shonto Preparatory School, Shonto, AZ
   Headquarter Offices, Washington, DC                         South Okreek Dam, SD
   Jeehdeez’a Academy, Pinon, AZ                               Southwest Region, Albuquerque, NM
   Kayenta Boarding School, Kayenta, AZ                        Tuba City Boarding School, Tuba City, AZ
   Keams Canyon Elementary, Keams Canyon, AZ                   Weber Dam, NV
   Kinlani Bordertown Dormitory, Flagstaff, AZ                 Western Navajo Juvenile Corrections Facility, Tuba City, AZ
   Little Singer Community School, Winslow, AZ                 Western Navajo Region, Phoenix, AZ*


Bureau of Land Management

   California State Office, Sacramento, CA                     Gunnison Field Office, Gunnison, CO
   Colorado State Office, Lakewood, CO                         Headquarters Offices, Washington, DC
   Division of Engineering and Environmental Services,         Nevada State Office, Reno, NV
       Washington, DC and Lakewood, CO                         Wyoming State Office, Cheyenne, WY


Bureau of Reclamation
   Albuquerque Area Office, Albuquerque, NM                    Northern California Area Office, Shasta, CA
   McCook Field Office, McCook, NE*                            Safety and Occupational Health Office, Lakewood, CO
   Mid-Pacific Regional Office, Sacramento, CA



U.S. Fish and Wildlife Service
   Jackson National Fish Hatchery, WY                          National Elk Refuge, WY
   Klamath Falls Fish and Wildlife Office,                     Headquarters Offices, Washington, DC
        Klamath Falls, OR                                      Sacramento National Wildlife Refuge Complex, CA
   Little White River Dam, SD                                  Tule Lake National Wildlife Refuge, CA
   Lower Klamath National Wildlife Refuge, OR                  Two Ponds National Wildlife Refuge, CO*
   Modoc National Wildlife Refuge/Dorris Dam, CA




                                                                                                          *contacted only
                                                          37
National Park Service

   Bent’s Old Fort National Historic Site, CO*               Grand Teton National Park, WY
   Dinosaur National Monument, CO and UT                     Headquarters Offices, Washington, DC
   Everglades National Park, FL*                             Inter-Mountain Regional Office, Lakewood, CO
   Gateway National Park, NY*                                Rocky Mountain National Park, CO
   Glacier National Park, MT                                 Yellowstone National Park, WY*
   Grand Canyon National Park, AZ                            Yosemite National Park, CA



Departmental Offices
   Policy, Management and Budget
       Office of Acquisition and Property Management,
            Washington, DC
       Office of Budget, Washington, DC
       Office of Occupational Health and Safety
            Washington, DC and Lakewood, CO


U.S. Geological Survey
   Wyoming Field Office, Jackson National Fish
      Hatchery, WY
   Headquarters Offices, Reston, VA


Office of Surface Mining Reclamation and Enforcement
   Division of Administration, Washington, DC



Minerals Management Service
   Administration and Budget, Washington, DC*




                                                                                                      *contacted only
                                                        38
                  Appendix D — Elements of a Well-Designed
                          Health & Safety Program
The Occupational Safety and Health Act of 1970 and Executive Order 12196 requires Federal agencies to
provide a safe and healthful workplace. The applicable regulations are contained in Title 29 of the Code of
Federal Regulations, Part 1960. As required by these regulations, the Department should ensure that:


 1. The Department's Designated Agency Safety and Health Official (DASHO) reports at the Assistant Secretary level.
     29 C.F.R. § 1960.6

 2. The Department's Office of Occupational Health and Safety has an adequate budget and staff to implement the
     Department's health and safety program. 29 C.F.R. § 1960.6

 3. Each Bureau’s health and safety budget includes appropriate financial and other resources to effectively implement
     and administer its health and safety program. 29 C.F.R. § 1960.7

 4. Each Bureau has sufficient personnel at all levels, plus funding for administrative costs, travel expenses, and
     protective equipment to administer its health and safety program. 29 C.F.R. § 1960.7

 5. Each Bureau utilizes health and safety inspectors that are "personnel with equipment and competence to recognize
     hazards." 29 C.F.R. § 1960.25

 6. Each Bureau inspects each workplace, including office operations, at least annually. 29 C.F.R. § 1960.25
 7. Each Bureau promptly abates all unsafe and unhealthful conditions. 29 C.F.R. § 1960.30
 8. Each Bureau performs a sufficient number of unannounced inspections and unannounced follow-ups to ensure the
     abatement of hazardous conditions. 29 C.F.R. § 1960.25

 9. Each Bureau posts each Notice of Unsafe or Unhealthful Working Conditions that includes a full description of the
     unsafe or unhealthful working condition and planned abatement schedule until the deficiency has been abated or for 3
     working days, whichever is later. 29 C.F.R. § 1960.26

 10. Each Bureau includes in its health and safety procedures the right of each employee to report unsafe and unhealthful
     conditions without threat of restraint, interference, coercion, discrimination or reprisal for filing a report.
     29 C.F.R. § 1960.46

 11. Each Bureau provides adequate training for all supervisory employees and for safety and health specialists.
     29 C.F.R. § 1960.55 and 1960.56

 12. Each Bureau implements career development programs for their occupational safety and health specialists enabling
     the specialists to meet present and future safety and health program needs. 29 C.F.R. § 1960.56

 13. Each employee serving in a collateral duty safety and health position receives safety and health training within 6
     months of assignment. 29 C.F.R. § 1960.57

 14. Each Bureau establishes committees to monitor and assist with its safety and health program. 29 C.F.R. § 1960.37
 15. Bureau safety and health personnel are held accountable for their individual safety and health programs.
     29 C.F.R. § 1960.11

 16. Each Bureau recognizes superior performance in discharging safety and health responsibilities by individuals or
     groups. 29 C.F.R. § 1960.11
 In addition, we believe each Bureau should strive to achieve OSHA's Voluntary Protection Program — STAR or MERIT
 status.


                                                             39
 Appendix E — Improvements Needed in Department and Bureau
                   Maintenance Programs

The Department’s deferred maintenance backlog has been one of its top management challenges for
many years. The total backlog as of FY2006 ranges between $9.6 billion and $17.3 billion, and has
increased by at least $2 billion since FY2000. The number of unmitigated health and safety issues at the
Department’s facilities is directly related to levels of maintenance being performed. When preventive
maintenance is not performed, this lack of maintenance results in unmitigated hazards.

Although the Department has developed policies for the life-cycle management of assets, we found that
in practice, bureaus did not emphasize preventive maintenance. The lack of routine maintenance has
significantly contributed to a maintenance backlog and to health and safety deficiencies. A proactive
maintenance process — one that emphasizes the role of preventive maintenance — is essential in
meeting ongoing maintenance needs and maximizing the useful life of assets.

From FY2000 to FY2006, the Department received approximately $5.9 billion in funding for
maintenance. Annual funding increased from $657.9 million in FY2000 to $953.5 million in FY2006;
an increase of 45 percent. During this period, the Department also received $4.9 billion in
construction funding. Some construction funds are used to address deferred maintenance.




However, the Department lacks a funding strategy that ensures health and safety maintenance issues are
timely and effectively addressed. The Department’s funding is not commensurate with its maintenance
requirements. We were told that requesting funding to cover the true cost of performing all maintenance
has been discouraged over the years because it is believed that the amount is so large that it would not be
provided. The preventive maintenance necessary to keep facilities in good condition and reach their
expected useful lives is not always done and facilities continue to deteriorate prematurely. Even though
funding is not sufficient to cover all maintenance needs, sometimes bureaus are unable to spend what
they get. The Department needs a strategy to coordinate funding and spending in order to obtain
appropriate funding levels.
                                                    40
We noted that certain NPS national parks such as Yosemite and Grand Canyon have developed park
asset management plans that contain detailed estimates for performing maintenance. BOR performs
maintenance on many of its facilities with funds provided by water users’ payments and is therefore
not as dependent on appropriated dollars as other bureaus in the Department. BIA annually distributes
funds to BIE schools for preventive maintenance; however, many schools remain in poor condition.

Condition Assessments

The Department and its bureaus have not completed initial condition assessments for all of their
facilities. Condition assessments identify and validate the condition of facilities; result in the
identification of maintenance requirements; and help in identifying health and safety deficiencies. This
tool or process assists managers in establishing maintenance schedules, estimating budgetary
requirements for recurring, component renewal, and deferred maintenance. The condition assessments
create the ability to plan, schedule and conduct maintenance and to properly define the scope and cost
of repair, improvement, replacement operations, recurring and preventive maintenance, and
component renewal activities in the future. The Department’s Asset Management Plan states that
condition assessments begin with verification and existence of the asset and then proceed to
examination of its condition. The Plan required that all initial comprehensive assessments be
completed by the end of FY2006. As of August 2007, however, the Department and bureaus had not
completed all of their condition assessments.

Department Must Accelerate Implementation of the New Asset Management Plan

The Department and its bureaus are implementing a more proactive asset management plan for their
constructed infrastructure; however, they must accelerate its implementation and develop a funding
strategy to ensure that routine maintenance is performed when needed to help protect the health and
safety of employees and the public. If this is not accomplished, facilities will continue to fall into
disrepair and the number of health and safety issues will rise.

Progress Has Been Made by the Department

We noted that the Department and its bureaus have made progress in the maintenance area. The
Department and its bureaus are broadening their maintenance philosophy by adopting policies that
require a comprehensive or life-cycle approach to managing facilities. The comprehensive asset
management plan requires asset management plans be developed for each bureau and for certain other
areas, such as major National Parks and BLM State Offices. A Senior Real Property Officer oversees
this process.

Many of these actions were taken in response to suggestions we made in our 2001 report, Maintaining
the Department of the Interior’s Facilities: A Framework for Action (Report No. 2002-I-0008). The
following table provides the status of suggestions from that report.




                                                    41
   Suggested Action                                            Status
1. Appoint a Departmental      Not Implemented. The Department has not appointed a Chief
Chief Maintenance Officer      Maintenance Officer. However, the Department does have a Senior
                               Real Property Officer as required by Executive Order 13327.

2. Take immediate steps to     Partially Implemented. Over the last 5 years, the bureaus have funded
reduce the deferred mainte-    in excess of $5 billion to address deferred maintenance. In 2005 and
nance backlog                  2006, the Department and bureaus reported having initiated or
                               completed 2,365 deferred maintenance projects. Management cites that
                               it completed 6,000 projects in the National Park Service (NPS) since
                               2001. Despite these steps, the deferred maintenance backlog has
                               continued to grow.

3. Manage facilities           Partially Implemented. Although the Department and its bureaus are
proactively                    implementing a more proactive asset management plan for their
                               constructed infrastructure; not all bureaus are proactively maintaining
                               their facilities. The Department and bureaus must accelerate the
                               implementation of the asset management plan and develop a funding
                               strategy to ensure that routine maintenance is performed.

4. Establish a single          Not Implemented. The Department has not established a single
maintenance budget for the     maintenance budget.
entire Department

5. Conduct standardized        Partially Implemented. The Department and its bureaus are
condition assessments          establishing better inventories and are in the process of completing
                               condition assessments on their assets. They are also implementing a
                               facility condition index to assist in rating and comparing the condition
                               of different assets.

6. Establish relevant          Implemented. In its Asset Management Plan, the Department has
performance measures           established goals related to deferred maintenance. Department-wide
                               goals for deferred maintenance reduction have also been established in
                               the Government Performance and Results Act (GPRA) Strategic Plan.

7. Implement an integrated     Partially Implemented. The Department and its bureaus are in the
facilities management system   process of implementing MAXIMO, a facilities management system, to
                               varying degrees; however, an integrated Department-wide facilities
                               management system is still needed.




                                                  42
                 Appendix F — Bureau Survey Results

FAVORABLE                 NEUTRAL                         UNFAVORABLE                 NOT APPLICABLE

I believe the health and safety of the general public is protected when visiting my work-
place.



   DOI (Total)                             80%                                   10%         9%            1%


          DO                        67%                               19%                  12%             2%


          BIA                            72%                               15%              12%            1%


         NPS                               81%                                    9%         9%            1%


         BOR                                   82%                                8%         9%            1%


        MMS                                    82%                                8%         10%


         FWS                                   83%                                    8%     8%            1%


         BLM                                   84%                                    7%      8%        1%


       USGS                                    84%                                    8%      6%           2%


         OSM                                     88%                                        10%            2%



 The more serious health and safety issues in my workplace are corrected before the
less serious ones.


DOI (Total)                        68%                               17%               11%        4%


       DO                    56%                              21%               14%           9%


      OSM                       65%                                 17%          3%        15%


      MMS                          66%                                22%                   9%        3%


                                   66%                               20%                   12%             2%
       BIA

      BOR                          66%                               18%               12%         4%


      FWS                           69%                               16%              10%        5%


    USGS                            69%                               17%              5%        9%


      NPS                           69%                               15%              13%            3%


      BLM                           70%                                   17%              10%        3%




                                                     43
 FAVORABLE                 NEUTRAL                      UNFAVORABLE           NOT APPLICABLE

I believe my bureau is doing an effective job of reducing job-related accidents at my
workplace.


 DOI (Total)                          72%                              18%               9%         1%


        DO                      60%                            23%                10%         7%


        BIA                          68%                             20%                11%         1%


       NPS                            69%                             18%               12%         1%


     USGS                              74%                                  20%           4%        2%


      MMS                              74%                            18%                6%         2%


       FWS                             74%                                 17%           7%         2%


       BLM                                 77%                              15%           7%        1%


       BOR                                 77%                              15%           7%        1%


       OSM                                       88%                                7% 3%           2%




 Health and safety is a priority of senior level management.



DOI (Total)                      66%                             19%                    14%             1%


       DO                45%                             27%                23%                5%


     MMS                       58%                             26%                      15%             1%


       BIA                      63%                             21%                 14%                 2%


    USGS                        63%                              23%                    11%        3%


      BOR                        67%                                 20%                13%


      FWS                        67%                                 19%                12%             2%


      BLM                            68%                             18%                12%             2%


      NPS                            69%                             16%                14%             1%


      OSM                              73%                                  18%               9%




                                                   44
FAVORABLE                  NEUTRAL                   UNFAVORABLE       NOT APPLICABLE

Health and Safety is a priority for my immediate supervisor.


DOI (Total)                          77%                             14%          8%        1%


       DO                         69%                          22%               8%         1%


       BIA                         73%                         15%               11%        1%


    USGS                            74%                            17%            7%        2%


     MMS                            76%                            15%            8%        1%


      FWS                               78%                          13%          9%


      BLM                               79%                          12%          8%        1%


      BOR                               79%                           13%         7%        1%


      NPS                               80%                           13%          7%


      OSM                                 85%                              7%     7%        1%




Health and safety is a priority of my fellow workers.


DOI (Total)                             80%                           14%          6%


     MMS                            74%                              21%           5%


    USGS                            75%                              18%          6%        1%


       DO                            77%                             17%           5%       1%


      OSM                               78%                              20%                2%


      BLM                               79%                           14%          6%       1%


      FWS                               80%                            15%         5%


      NPS                               80%                            14%         6%


       BIA                              80%                            14%         6%


      BOR                                82%                               13%         5%




                                                45
   FAVORABLE                NEUTRAL                      UNFAVORABLE                        NOT APPLICABLE
  Health and safety concerns that are reported to management are addressed in a timely
  manner.



   DOI (Total)                      64%                                       19%             14%        3%


          DO                 52%                                  24%                   18%             6%


        MMS                      57%                                    22%                 15%         6%


          BIA                      61%                                    21%                 16%              2%


       USGS                        63%                                         22%            8%        7%


         NPS                        65%                                       18%                 16%             1%


         OSM                        65%                                        20%           5%     10%


         BOR                           66%                                     19%            12%       3%


         BLM                           67%                                      19%               11%    3%


         FWS                            69%                                     16%           11%       4%




  Uncorrected serious health and safety issues currently exist at my workplace.

Serious Deficiencies                                    Serious Deficiencies
                             Neutral                                                          Not Applicable
   Do Not Exist                                              Do Exist


    DOI (Total)                  56%                                19%                     22%              3%


           BIA             43%                             25%                         29%                   3%


           DO                48%                            18%                       28%                6%


          NPS                    54%                              18%                       26%                   2%


          BOR                      61%                                   17%                  20%                 2%


         MMS                        62%                                  16%                  21%                 1%


          BLM                       62%                                       19%             15%         4%


        USGS                           64%                                     19%             13%        4%


          FWS                          65%                                    14%             18%            3%


          OSM                                73%                                     12%      7%        8%



                                                   46
My workplace is…

         Safer than it was five         As safe as it was five        Less safe that it was five
               years ago                     years ago                       years ago


 DOI (Total)                    38%                                    52%                          10%


        DO           24%                                   54%                                22%


      MMS                 29%                                    59%                                12%


       BOR                 32%                                     58%                              10%


        BIA                 34%                                   51%                              15%


     USGS                   35%                                          61%                              4%


       BLM                  35%                                        56%                           9%


       FWS                      39%                                      53%                             8%


       OSM                       40%                                         55%                         5%


       NPS                        45%                                         47%                    8%




 I have accessed the Department’s SafetyNet website to obtain health and safety
information.

                                          YES                    NO




DOI (Total)                36%                                            64%


      OSM           22%                                           78%


       DO           23%                                           77%


       BIA            28%                                             72%


     MMS                  31%                                           69%


      BLM                  34%                                           66%


      FWS                  36%                                            64%


    USGS                    38%                                              62%


      BOR                   38%                                              62%


      NPS                        43%                                           57%




                                                      47
 FAVORABLE                  NEUTRAL                      UNFAVORABLE         NOT APPLICABLE

 Overall, I work in a safe and healthy environment.


 DOI (Total)                             77%                             13%         10%


        DO                       59%                             21%           19%              1%


        BIA                            71%                             18%           11%


       MMS                              75%                             15%          9%         1%


       NPS                               78%                             13%          9%


       BOR                               78%                             11%         11%


       BLM                               79%                                 12%      9%


       FWS                               80%                                 11%      9%


      USGS                                   81%                              12%     7%


       OSM                                   82%                               15%         3%




My job is classified as hazardous.

The following chart depicts allocation of the 1,385 respondents who stated their job was
considered hazardous.

                                             MMS
                                              1%
                                                        USGS
                           BLM
                                                         2%
                           16%

                                                                                     NPS
          BOR                                                                        35%
          13%




                     BIA
                     18%                                       FWS
                                                               15%



Departmental Offices and OSM had respondents who had jobs classified as high hazard,
but accounted for less than 1% of the total.


                                                   48
FAVORABLE                 NEUTRAL                        UNFAVORABLE        NOT APPLICABLE

 I have been trained to safely perform the duties associated with my job.



  DOI (Total)                                85%                                  7%     8%


        MMS                        67%                           11%             22%


         DO                        67%                                  33%


         BIA                             78%                            9%             12%         1%


        BOR                              80%                             7%            13%


        BLM                                   86%                                 7%         7%


        NPS                                    88%                                 7%        5%


        FWS                                    89%                                 5%        6%


       USGS                                        91%                                   9%


        OSM                                          100%




I have received safety equipment appropriate to my job.



DOI (Total)                            80%                             8%         11%             1%


       DO                  50%                                   50%


       BIA                       66%                            15%          17%                  2%


     MMS                               78%                             11%         11%


    USGS                               79%                              12%            9%


      BOR                              80%                             6%         13%             1%


      BLM                                83%                                7%         10%


      NPS                                84%                                 8%        8%


      FWS                                    88%                              5%        7%


      OSM                                          100%




                                               49
FAVORABLE                NEUTRAL                      UNFAVORABLE             NOT APPLICABLE

I have received training in the appropriate use of my safety equipment.


DOI (Total)                              83%                                  8%         8%    1%


       DO                 50%                              33%                     17%


     MMS                    56%                                  33%                    11%


       BIA                        69%                              14%             15%         2%


      BOR                               78%                              8%         13%        1%


      NPS                                 86%                                      8%     5%


    USGS                                      88%                              3%        9%


      BLM                                     89%                                  5% 6%


      FWS                                     90%                                  3% 7%


      OSM                                           100%




                                               50
                              Appendix G — List of Figures

Figure 1   Survey Response Rate by Bureau ............................................................. 16

Figure 2   Respondents’ Area of Occupation ............................................................ 17

Figure 3   Workplace Description.............................................................................. 17

Figure 4   Results of Question Related to Uncorrected
           Health and Safety Deficiencies ................................................................. 18

Figure 5   Results of Questions Related to Reporting and Mitigation ....................... 22

Figure 6   Results of Questions Relating to Health and Safety as a Priority ............. 23

Figure 7   Results of Questions Related to High Hazard Jobs ................................... 24




                                                            51
                                Appendix H— Abbreviations



AMT .......................................................................................... Asset Management Team
BIA .............................................................................................. Bureau of Indian Affairs
BIE ......................................................................................... Bureau of Indian Education
BLM .................................................................................... Bureau of Land Management
BOR .............................................................................................. Bureau of Reclamation
CASHE ......................... Compliance Assessment - Safety, Health, and the Environment
CFR ...................................................................................... Code of Federal Regulations
CRV .......................................................................................Current Replacement Value
DASHO ....................................................Designated Agency Safety and Health Official
Department and DOI ................................................................ Department of the Interior
DO .................................................................................................... Departmental Offices
FBMS .......................................................... Financial and Business Management System
FWS .................................................................................. U.S. Fish and Wildlife Service
FY .................................................................................................................... Fiscal Year
GAO ........................................................................... Government Accountability Office
GPRA ............................................................. Government Performance and Results Act
MMS ................................................................................. Minerals Management Service
NBC ...........................................................................................National Business Center
NFH............................................................................................... National Fish Hatchery
NPS ................................................................................................. National Park Service
OHS..................................................................Office of Occupational Health and Safety
OIG ........................................................................................ Office of Inspector General
OMB .......................................................................... Office of Management and Budget
OSHA ..................................................... Occupational Safety and Health Administration
OSM ......................................... Office of Surface Mining Reclamation and Enforcement
PPE ....................................................................................Personal Protective Equipment
SMIS ................................................................. Safety Management Information System
USGS ........................................................................................... U.S. Geological Survey




                                                                52
               Appendix I
Department’s Response to the Draft Report




                   53
54
55
56
57
58
59
60
61
62
63
64
65
66
67
                   Appendix  H— Abbreviations
                           Appendix  J
                Status of Audit Recommendations


Recommendations                  Status               Action Required
           1          Resolved and Implemented    No further action required.
   2, 3, 4, 5, 6, 7   Resolved, Not Implemented   No further response to the Office
                                                  of Inspector General is needed.
                                                  We will refer the recommenda-
                                                  tions to the Assistant Secretary
                                                  for Policy, Management and
                                                  Budget for tracking of implemen-
                                                  tation.




                                     68
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 5341 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240

By Phone:              24-Hour Toll Free         800-424-5081
                       Washington Metro Area     703-487-5435

By Fax:                703-487-5402

By Internet:           www.doioig.gov



                                                          Revised 07/07
